Tm

OCKLE

2311 Douglas Street Nn : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 19-1069

TAKEDA PHARMACEUTICAL COMPANY LIMITED,
TAKEDA PHARMACEUTICALS USA, INC.,
AND ELI LILY AND COMPANY,

Petitioners,
Vv.
PAINTERS AND ALLIED TRADES DISTRICT
COUNCIL 82 HEALTH CARE FUND, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI IN SUPPORT OF RESPONDENTS in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 8974 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 30th day of April, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

AS MOTARY-State of Nebraska Lo &. 2 4h L,
RENEE J. GOSS 9 .
My Comm. Exp. September 5, 2023 =

Notary Public Affiant 39595
